February 5, 2021
Via U.S. Mail and Electronic Filing
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Kobe v. Buscemi, et al., No. 20-948
Dear Mr. Harris:
I am writing on behalf all respondents to request, pursuant to Supreme Court Rule 30.4, a 30day extension of time in which to file the Brief in Opposition in the above-captioned case. That
brief is currently due on February 16, 2021. The requested extension would move the due date to
March 18, 2021.
The reason for this request is that several different counsel will be providing input regarding the
Brief in Opposition, and current workloads will render it difficult to complete the brief by the
existing deadline.
If you have any questions, please call me at (803) 806-8222. Thank you for your kind assistance
in this matter.
Sincerely yours,
DAVIDSON, WREN & DEMASTERS, P.A.
s/ Kenneth P. Woodington
Kenneth P. Woodington
cc: Patricia L. Harrison, Counsel of Record for Petitioners

